               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE
                                               




       Customer Complaint Resolution
                 Process

                       Audit Report




                                         September 10, 2012
Report Number MS-AR-12-007
                                                                    September 10, 2012

                                            Customer Complaint Resolution Process

                                                        Report Number MS-AR-12-007




BACKGROUND:
U.S. Postal Service customers can            The Postal Service also did not
initiate complaints through a variety of     adequately monitor complaint resolution.
mechanisms, including the Postal             Its processes and procedures for
Service’s Internet site (USPS.com) or        conducting quality control reviews and
toll-free number (1-800-ASK-USPS), at        customer follow ups are inconsistently
retail units, and through congressional      applied, are sometimes not followed,
representatives and letters. The Postal      and are outdated. We identified similar
Service received about 3 million             concerns in a 2009 audit and, while the
customer complaints in fiscal year 2011      Postal Service agreed to take corrective
from residential and small business          action at that time, the corrective action
customers throughout the country.            was later discontinued as headquarters
                                             staff chose not to enforce them. Lastly,
Our objective was to evaluate the            system performance and data issues,
effectiveness of Postal Service policies     including outages and slow
and procedures for handling residential      performance, have hindered the Postal
and small business customer complaints       Service’s ability to efficiently address
and the corrective actions taken in          and resolve complaints.
response to related prior U.S. Postal
Service Office of Inspector General          WHAT THE OIG RECOMMENDED:
recommendations.                             We recommended the Postal Service
                                             develop a mechanism to incorporate
WHAT THE OIG FOUND:                          customer feedback regarding complaint
The Postal Service is not efficiently and    resolution into the system; require
effectively resolving customer               current policies and procedures to be
complaints. Specifically, staff members      followed until planned updates are
are closing complaints before customers      finalized; identify system deficiencies
consider their cases resolved. We found      and desired enhancements and work to
nearly 6 percent of complaints (180,000      correct them; develop a strategy for
cases) where customers lodged                reducing repeat complaints; and
follow-up complaints after the Postal        develop a mechanism for tracking
Service ‘closed’ their initial complaint.    system usage and response wait times
We estimate the Postal Service could         and ensuring that ongoing actions
have avoided costs of $8.8 million for       related to archiving data and monitoring
the 12-month period ending March 31,         outages continue.
2012, if they handled complaints more
efficiently.                                 Link to view entire report.
September 10, 2012

MEMORANDUM FOR:            MAURA ROBINSON
                           VICE PRESIDENT, CONSUMER AND INDUSTRY
                           AFFAIRS

                           JOHN EDGAR
                           VICE PRESIDENT, INFORMATION TECHNOLOGY



FROM:                      Darrell E. Benjamin, Jr.
                           Deputy Assistant Inspector General
                            for Revenue & Systems

SUBJECT:                   Audit Report – Customer Complaint Resolution Process
                           (Report Number MS-AR-12-007)

This report presents the results of our audit of the Customer Complaint Resolution
Process (Project Number 12RG021MS000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Janet Sorensen, director,
Marketing and Service, or me at 703-248-2100.

Attachments

cc: Corporate Audit and Response Management
Customer Complaint Resolution Process                                                                              MS-AR-12-007




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1 

Conclusion ...................................................................................................................... 2 

Complaints Closed Prior to Resolution ............................................................................ 3 

Complaint Resolution Not Adequately Monitored ............................................................ 5 

   Follow-Up Surveys ...................................................................................................... 5 

   Quality Control Reviews .............................................................................................. 5 

Enterprise Consumer Care Performance and Data Issues ............................................. 6 

Recommendations .......................................................................................................... 8 

Management’s Comments .............................................................................................. 9 

Evaluation of Management’s Comments ......................................................................... 9 

Appendix A: Additional Information ............................................................................... 10 

   Background ............................................................................................................... 10 

   Objective, Scope, and Methodology .......................................................................... 10 

   Prior Audit Coverage ................................................................................................. 12 

Appendix B: Monetary Impacts ..................................................................................... 13 

Appendix C: Management’s Comments ........................................................................ 15 
Customer Complaint Resolution Process                                                                 MS-AR-12-007




Introduction

This report presents the results of our audit of the U.S. Postal Service’s Customer
Complaint Resolution Process (Project Number 12RG021MS000). Our objective was to
evaluate the effectiveness of Postal Service policies and procedures for handling
residential and small business customer complaints. We also evaluated corrective
action taken as a result of a previous U.S. Postal Service Office of Inspector General
(OIG) audit report issued July 10, 2009. 1 This self-initiated audit addresses strategic
risk.

Each day millions of transactions occur between the Postal Service and its customers,
mostly through mail delivery to their homes or businesses or visits to post offices.
Customers can initiate complaints about these transactions or other issues through a
variety of mechanisms, including the Postal Service’s Internet site (www.USPS.com), its
toll-free number (1-800-ASK-USPS), retail units, congressional representatives, and
letters. Unless the complaint can be handled and resolved immediately, it must be
entered into the Enterprise Consumer Care (eCC) system 2 within 24 hours of receipt. 3
Generally, 4 customer complaints are routed to a designated Post Office within the
customer’s Zip Code. Postal Service guidelines 5 require responses to customer
complaints to be issued within specified timeframes:

   Internet, telephone, and walk-in complaints within 3 business days. 
   Congressional inquiries within 7 business days. 
   Letters within 10 days. 
   Publishers 6 between 9 and 36 days. 

The Postal Service received about 3 million customer complaints in fiscal year
(FY) 2011 from small business and residential customers throughout the country. The
top five complaint types accounted for 92 percent of all complaints made in FY 2011
(see Table 1). These complaints encompass such issues as non-delivered mail, poor
customer service, and misdelivered mail.




1
  Customer Complaints (Report Number MS-AR-09-009, dated July 10, 2009).
2
  Records and tracks customer complaint information for small businesses and residential customers.
3
  eCC Quick Reference Guide, page 2, October 2009.
4
  Exceptions include requests for verbal information related to ZIP Codes, postage rates, mail matter dimensions,
products and services, telephone numbers, track and confirm, and hours and location; calls for other
personnel/departments; procedures for filing claims (including money orders); and congressional inquiries involving
personnel issues of any kind.
5
  Consumer Affairs Standard Operating Procedures Complaint Handling Process, page 2, September 2009.
6
  Publishers can request documented delivery information for a periodical addressed to a specific subscriber.
                                                           1
                                                                                                                 .
Customer Complaint Resolution Process                                                                 MS-AR-12-007




                                Table 1. Complaint Types in FY 2011

                 Complaint Type                                Complaints           Percentage
                                                                                       of Total
                 No Delivery/No Attempt 7                         1,647,317                57%
                 Sending Domestic Mail                              303,153                10%
                 Customer Service Support                           301,118                10%
                 Change of Address                                  308,165                11%
                 Misdelivered Mail                                  110,633                 4%
                 Other                                              235,850                 8%
                 Total                                            2,906,236              100%
               Source: OIG analysis of eCC data.

The Postal Service relies on its Consumer and Industry Affairs officials working in
district offices throughout the country to oversee the customer complaint program.
District Consumer Affairs (DCA) officials are responsible for:

   Responding to customer complaints, inquiries, and suggestions.

   Coordinating the collection, tracking, and analysis of customer issues and making
    recommendations for corrective action.
          
   Overseeing compliance with policies and reporting complaint trends to the district
    marketing manager.

   Ensuring that complaints requiring follow up are entered into the eCC system and
    addressed.

See Appendix A for additional information about this audit.

Conclusion

The Postal Service is not efficiently and effectively resolving customer complaints.
Specifically, Postal Service staff are closing complaints before customers consider their
cases resolved. We examined about 3 million complaints for a 12-month period 8 and
found that nearly 6 percent of them (about 180,000 9 cases) were follow-up complaints
to those previously submitted to the Postal Service after it ‘closed’ the initial complaint.
We estimate the cost of handling repeat complaints added to be about $8.8 million in
unnecessary costs in FY 2011.




7
  An example of a No Attempt is when the customer alleges that the carrier did not make a sufficient attempt at
delivery to their address.
8
  April 1, 2011 through March 31, 2012.
9
  The total number of repeat complaints was 180,418. We rounded the number to 180,000.


                                                          2
Customer Complaint Resolution Process                                         MS-AR-12-007



While we appreciate the Postal Service’s efforts to quickly close customer complaints
within designated timeframes, inadequate resolution may result in repeat complaints
that add costs to the Postal Service, negatively impact customers’ perception of the
Postal Service, and possibly drive these customers away. Implementing a mechanism
to incorporate customer feedback into the eCC system will help reduce the risk of
repeat complaints and increase the overall efficiency of the complaint resolution
process.

The Postal Service is also not adequately monitoring complaint resolution by
consistently conducting quality control reviews and follow-up surveys with customers.
For example, only two of seven areas are currently conducting follow-up surveys and
quality reviews in accordance with the Consumer Affairs Standard Operating
Procedures. According to Postal Service Headquarters staff, since 2010, they have not
enforced the survey and quality control review requirements and, consequently, left the
completion of these tasks to the discretion of field staff. Furthermore, the link between
these activities and an employee’s appraisal system was eliminated. Consumer and
Industry Affairs Headquarters officials stated they plan to institute revised policies and
procedures for all locations to follow in September 2012. However, until these outdated
policies and procedures are updated, the Postal Service will not have a clear, consistent
understanding of the effectiveness of its customer complaint process.

We raised similar issues about the Postal Service’s complaint resolution process in our
2009 report. We reported that the Postal Service did not always take appropriate action
to resolve customer complaints and that policies did not require management to provide
oversight by performing quality control reviews of closed cases. Although the Postal
Service implemented corrective action to update its Standard Operating Procedures in
2009 to require quality reviews and follow-up surveys, these actions were discontinued
in 2010 and the aforementioned issues have re-emerged.

We also determined that eCC system performance and data issues, including outages
and slow performance, have hindered the Postal Service’s ability to efficiently address
and resolve complaints. Although the Postal Service has recently taken action to
archive data and monitor system outages, it still does not track the number of users who
log onto the system each day simultaneously or their wait times. Without this
information, the Postal Service may not have a clear understanding of eCC system
performance or what is causing performance issues.

Complaints Closed Prior to Resolution

The Postal Service is not effectively and efficiently resolving customer complaints.
Specifically, Postal Service staff members closed complaints before customers
considered them to be resolved. We found that nearly 6 percent of complaints (about
180,000 cases) for the 12-month period ending March 31, 2012, were follow-up
complaints resulting from the Postal Service ‘closing’ the customer’s initial complaint
without a satisfactory resolution. We estimate the cost of handling repeat complaints
added $8.8 million in unnecessary costs to the Postal Service over a 12-month period



                                            3
Customer Complaint Resolution Process                                              MS-AR-12-007




(see Appendix B for more information). Furthermore, inadequate resolution will add
unnecessary costs to the Postal Service for handling these repeat complaints and
negatively impact public perception of the Postal Service and may eventually drive
customers away.

The following examples illustrate repeat complaints:

      A customer called the local Post Office to report that home mail delivery had
       stopped. When no one contacted the customer, they called 1-800-ASK-USPS and
       the complaint was logged into the eCC system. The case was routed to the local
       Post Office and the supervisor contacted the customer to let them know that their
       mail could not be delivered because it is Postal Service policy not to deliver mail to a
       property that appears to be vacant. The customer stated that her home was not
       vacant. The case was closed in the eCC system the following day, with notes in the
       resolution field indicating that the Postal Service “would speak with the customer and
       the mail would continue to be on hold.” The customer called that same day and
       registered a second complaint because of non-delivery. After no action, the
       customer called 5 days later to register a third complaint. The Postal Service closed
       the second and third complaints that same day. The resolution field for the second
       complaint did not state what was done to resolve the issue, but only restated the
       customer’s issue. The resolution field for the third complaint stated this was a repeat
       case, but did not state how the case was resolved.

      A customer called 1-800-ASK-USPS to register a complaint that mail was not being
       collected from his mailbox. The complaint was logged into the eCC system that day.
       The complaint was closed the next day with the resolution field stating “I left a
       message with the customer stating that I will talk to the mail carrier to see what is
       going on.” The customer called 13 days later to register a second complaint. The
       complaint was closed the following day in the eCC system, with the resolution field
       stating “regular carrier off today will speak to him.”

Postal Service staff responsible for managing customer complaints attribute repeat
complaints to a variety of factors including the staff being focused on closing complaints
in accordance with the designated timeframes and certain customers or issues being
prone to repeat complaints. 10 We believe the risk of closing cases too soon to meet the
performance metric could be mitigated if a mechanism to incorporate customer
feedback of the resolution into the resolution field in the eCC system was developed.
Such a mechanism could reduce the number of repeat complaints, increase the overall
efficiency of the customer complaint process (staff handling repeat complaints would
likely have to devote less time and resources to resolving them because they have a
more complete understanding of the initial resolution available to them in the eCC
system), and enhance customer service.



10
     Additional information on these specific targets is provided in Appendix A.


                                                             4
Customer Complaint Resolution Process                                                                 MS-AR-12-007




Complaint Resolution Not Adequately Monitored

The Postal Service is also not adequately monitoring complaint resolution. Specifically,
they are not consistently conducting follow-up surveys with customers and performing
quality control reviews in accordance with Standard Operating Procedures (SOP).
According to Postal Service Headquarters staff, since 2010, they have not enforced the
survey and quality control review requirements and, consequently, left completion of
these tasks to the discretion of field staff. Furthermore, the link between these activities
and the employee appraisal system was eliminated. Postal Service officials stated that
they are reviewing their current needs and expect to have new policies and procedures
in place in September 2012. Until these policies and procedures are updated, the Postal
Service should follow existing policies and procedures related to monitoring complaint
resolutions. Absent additional actions, the Postal Service will still not have a clear
understanding of the effectiveness of their customer complaint resolution process,
which may contribute to repeat complaints.

Follow-Up Surveys

Employees are not consistently completing follow-up surveys. Postal Service policy
recognizes the importance of customer follow up and requires DCA officials to send
follow-up surveys to customers who submit complaints that have been closed. The
follow-up surveys were sent to ensure that customers were satisfied in a timely manner
with a quality response. 11 Specifically, (1) a follow-up survey should be sent out for a
minimum of 25 cases per clerk, per month, between 2-4 weeks after final resolution;
and (2) survey responses should be documented, analyzed, and shared with the
appropriate managers each month. We spoke with officials from 10 district offices and
found that only four completed the follow-up surveys. Postal Service officials did state,
however, that they were relying on the surveys as part of the Customer Experience
Measurement (CEM) program to gauge customers’ views of the resolution process. 12
CEM surveys; however, randomly select Postal Service customers and not customers
who submit specific complaints. Follow-up surveys related to specific complaints would
provide greater insight into customers’ views of how complaints are handled and
resolved.

Quality Control Reviews

Quality control reviews of how effectively complaints are handled are not consistently
performed. Currently, only two of the seven Postal Service areas (Southern and Great
Lakes) have a quality control review process in place. This condition mirrors what we
found in our July 2009 audit, which reported that Postal Service policies did not require

11
  Consumer Affairs Standard Operating Procedures Complaint Handling Process, page 6, September 2009.
12
  The CEM program is an integrated model for collecting customer experience data through customer surveys. The
program is focused on the end-to-end customer experience and will effectively evaluate what contributes to a positive
customer experience.


                                                          5
Customer Complaint Resolution Process                                                              MS-AR-12-007



management to provide oversight by performing quality control reviews of closed cases.
We recommended the Postal Service revise its SOP to incorporate a quality control
process to review closed cases to ensure they are properly resolved and documented.
At that time, the Postal Service agreed with our findings and recommendations and took
appropriate action to close the recommendations. Postal Service policy currently states
that field staff is required to conduct quality reviews of 25 cases per clerk, per month. As
stated earlier, Consumer and Industry Affairs field staff throughout the country are not
conducting quality control reviews. The two areas that are conducting some form of a
quality control review are doing so by their own initiative.

The Great Lakes Area, which has been performing these quality control reviews the
longest, has one of the lowest percentages of repeat complaints for the 12-month period
ending March 31, 2012 (see Table 2).

          Table 2. Repeat Complaints by Area, April 1, 2011 to March 31, 2012

                                             Repeat               Total             Percentage
                    Area                   Complaints           Complaints           of Total
            Northeast                           31,002              454,445               6.8%
            Southern                            44,046              646,648               6.8%
            Capital Metro                       23,711              349,585               6.8%
            Pacific                             25,052              427,867               5.9%
            Eastern                             20,312              357,168               5.7%
            Great Lakes                         15,515              299,460               5.2%
            Western                             20,779              415,650               5.0%
            Total                              180,418            2,950,823               6.1%
          Source: OIG analysis of eCC data.

Enterprise Consumer Care Performance and Data Issues

Some eCC system performance and data issues — including outages, slow system
performance, and incomplete data fields — have hindered the Postal Service’s ability to
efficiently address and resolve complaints. For example, we noted the following which
we identified to be causing slow performance in the eCC system:

    More users may be accessing the system simultaneously than originally intended.
     The eCC system is expected to accommodate 2,700 users logging in at the same
     time, with a wait time of 5 seconds or less for system responses. 13 The Postal
     Service estimates that there are about 79,000 users, but does not track the number
     of users who log onto the system each day simultaneously or their wait times. They
     also stated the system typically slows down between 11:30 a.m. – 3:00 p.m. Eastern
     Standard Time, when users on the Pacific Coast start logging onto the system.



13
  eCC Application Pre-Pilot Launch Load Test Waiver, July 2009, states that about 2,700 concurrent users should be
accommodated with a system wait time of 5 seconds or less.   


                                                        6
Customer Complaint Resolution Process                                                                MS-AR-12-007



    Data archiving was delayed. The Postal Service did not perform the required 14
     archiving of customer complaints. Postal Service Information Technology (IT)
     requirements stated that 1 year’s worth of data should be maintained online. During
     our audit, there were over 30 months of data online in the eCC system, so
     18 months of data should have been archived. Officials stated there was a delay in
     archiving this data because they were anticipating replacement of the eCC system.
     The Postal Service began archiving complaint cases in early 2012 (during our audit)
     to relieve capacity issues.

    eCC system performance was not monitored sufficiently. Postal Service policy 15
     requires eCC servers and supporting environments to be consistently monitored, but
     the Postal Service did not provide evidence that eCC system outages were being
     monitored until April 2012, during our audit. Postal Service IT officials did not create
     an eCC outage report, which tracked outages prior to April 2012, because
     Consumer and Industry Affairs managers did not previously request it.

In addition, personnel were not adequately following guidance for entering data into the
resolution field in the eCC system. Per eCC guidance, “Resolution Notes must be
detailed in describing the steps taken to investigate and resolve the issue.” The
guidance also instructs employees to “document the actions taken to address and
resolve the case in the Resolution Notes box, to include your name and contact
Information.” 16 However, information in the resolution field did not comply with the
guidance. Specifically, we reviewed a statistical sample of 115 repeat complaints and
found that 75 percent 17 of them did not include language stating whether the complaint
had been resolved, nor did they include enough information to determine whether the
complaint was resolved. Some examples of resolutions included:

    “Regular carrier off today will speak to him.”
    “Customer told to wait.”
    “Unable to assist.”
    “Will call customer.”
    “Supervisor is addressing issue.”
    “Will investigate.”
    “See notes.”
    “Resolved.”

An area Consumer and Industry Affairs official also stated that the information in the
resolution field was often insufficient and did not provide adequate insight into the
complaint’s resolution, which hindered their performance of oversight duties. As stated
earlier, we also believe the guidance itself should be updated to include customer

14
   Technology Solutions Requirements, June 2009, Section 5.1, states that 1 year of data will be kept online in the
eCC and 2 years of historical data will be stored offline.
15
   Technology Solutions Requirements, June 2009, Section 4.6, states that eCC servers and supporting
environments need to be consistently monitored.  
16
   eCC Quick Reference Guide, page 8, October 20, 2009.
17
   We analyzed a statistical sample of 115 complaints lodged from April 1, 2011 through March 31, 2012, and found
that 86 (or 75 percent) had inadequate resolution notes. See Appendix B for more details on this sample.


                                                         7
Customer Complaint Resolution Process                                           MS-AR-12-007



feedback on the Postal Service’s resolution of customer complaints into the eCC
system. Such information could help reduce the number of repeat complaints and
improve efficiency and customer service.

Although the Postal Service has taken action to address some of these eCC system
deficiencies and data issues, additional information would be valuable in assessing eCC
performance and long-term user needs. For example, data on the number of daily
users, how many of them are logging onto the system simultaneously, and their wait
times would let the Postal Service know whether the system needs additional capacity
and is meeting its performance targets. Furthermore, identifying the enhancements
needed based on the eCC system’s current functionality would help users and IT staff
develop appropriate system modifications and updates. Without this information, system
performance issues may remain, which could result in the Postal Service not meeting its
targets for closing customer complaints, incurring additional costs from not handling
complaints efficiently, and having aggrieved customers whose complaints were not
handled in a timely manner.

Recommendations

We recommend the vice president, Consumer and Industry Affairs:

1. Develop a strategy for reducing the number of repeat complaints that would include
   specific actions to:

   Update and implement procedures to incorporate customer feedback on the Postal
    Service’s resolution of customer complaints into the Enterprise Consumer Care
    system.

   Finalize updates to policies and procedures for collecting, analyzing, and resolving
    customer complaints to include guidance for conducting quality control reviews and
    performing customer follow-up surveys; and, in the interim, require staff to follow the
    current policies for conducting quality control reviews and performing customer
    follow-up surveys.

2. Identify deficiencies and desired enhancements for the Enterprise Consumer Care
   system and take necessary action to notify the Information Technology department.

We recommend the vice president, Consumer and Industry Affairs, and the vice
president, Information Technology:

3. Develop a mechanism for tracking Enterprise Consumer Care system usage and
   wait times and ensure that current archiving processes and system outage records
   are continued.




                                             8
Customer Complaint Resolution Process                                        MS-AR-12-007



Management’s Comments

Management agreed with the findings, recommendations, and monetary impact.
Regarding recommendation 1, management stated it will provide additional guidance on
the timely resolution of complaints to areas and districts. This will include
recommendations and best practices focused on resolving issues including customer
follow up. Management trained district Consumer and Industry Contact managers
during FY 2012 on the appropriate resolution of complaints and plans to provide
additional training by January 31, 2013.

Regarding recommendation 2, management stated it is currently evaluating the eCC
system to identify deficiencies and improvements and will evaluate the projected cost of
system changes and prioritize needed changes by September 30, 2013.

Regarding recommendation 3, management stated that the Postal Service’s IT group
will develop a process to measure actual daily concurrent users and will measure usage
against system limitations. IT will also add additional monitoring to detect performance
issues by September 30, 2013.

See Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations in the report.

The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                           9
Customer Complaint Resolution Process                                                                  MS-AR-12-007




                                 Appendix A: Additional Information

Background

The Postal Service’s ability to collect, process, and resolve customer complaints is key
to retaining customers and increasing revenue. The Postal Service receives numerous
complaints from business and residential customers each year. The Postal Service
received about 3 million complaints in FY 2011 from residential and small business
customers on issues such as non-delivered mail, poor customer service, and
misdelivered mail.

Each day, millions of transactions occur between the Postal Service and its customers,
mostly through mail delivery to their homes or businesses or visits to post offices. Postal
Service customers can initiate complaints about these transactions or other issues
through a variety of mechanisms, such as USPS.com; the 1-800-ASK-USPS Customer
Contact Center; the local Post Office; or through congressional representatives and
letters, and publishers. Unless the complaint can be handled and resolved immediately,
it must be entered into the eCC system within 24 hours of receipt. Generally, 18
customer complaints are routed to a designated Post Office based on the customer’s
zip code. Postal Service guidelines require responses to customer complaints to be
issued within required timeframes. 19 If the Post Office has not resolved a complaint after
two customer contacts, it is forwarded to the DCA office. The DCA office is responsible
for:

    Responding to customer complaints, inquiries, and suggestions.

    Coordinating the collection, tracking, and analyzing of customer issues and making
     recommendations for corrective action.
      
    Overseeing district compliance with policies.  

    Reporting complaint trends to the district marketing manager.

Objective, Scope, and Methodology

Our objective was to evaluate the effectiveness of Postal Service policies and
procedures for handling customer complaints. We also evaluated corrective actions
taken as a result of an OIG audit report issued July 10, 2009. 20

18
   Exceptions include requests for verbal information related to ZIP Codes, postage rates, mail matter dimensions,
products and services, telephone numbers, track and confirm, and hours and locations; calls for other
personnel/departments; procedures for filing claims (including money orders); and congressional inquiries involving
personnel issues of any kind.
19
   Internet, telephone calls, and walk-ins require resolution within 3 business days; congressional inquires require
resolution within 7 business days; letters require resolution within 10 business days; and Publication Watch requires
resolution within 9-36 business days.
20
   Customer Complaints (Report Number MS-AR-09-009, dated July 10, 2009).


                                                          10
Customer Complaint Resolution Process                                                               MS-AR-12-007




To accomplish our objective we:

   Reviewed customer complaint policies, procedures, and processes.

   Interviewed headquarters, area, district, and local Post Office officials.
         
   Reviewed the eCC system for storing and tracking customer complaints and
    analyzed eCC data on customer inquiries for the period April 1, 2011 to March 31,
    2012.

   Reviewed customer satisfaction data from other applicable systems, including CEM.

We conducted this performance audit from January through September 2012 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on August 9, 2012, and included their
comments where appropriate.

We assessed the reliability of eCC data by testing for missing data, outliers, and errors.
We also tested a random sample of repeat complaints for accuracy and traced a
complaint to the local Post Office for completeness. We also interviewed agency
officials knowledgeable about the data. We determined the data were sufficiently
reliable for the purposes of this report.

To determine repeat complaints, we obtained data on customer inquiries from the eCC
system from April 1, 2011 through March 31, 2012. The data contained 3.4 million
inquires in five categories: compliments, information, suggestions, unknown, and
problems. Through our analysis of the data and subsequent discussions with Postal
Service officials, we determined that the ‘problem’ category had the most customer
complaints (about 3 million). We then sorted the complaints into two categories:
(1) those handled at the local Post Office and district levels; and (2) those we
determined were made by the same individuals by matching customer names,
addresses, and telephone numbers. We reviewed the data to identify which consecutive
complaints were filed within 31 days either on or after the due date or the resolved date
of the previous complaint. We then analyzed a statistical sample of these resulting
complaints and determined that about 180,418 were repeat complaints. 21


21
   To obtain our number of 180,418 repeat complaints we analyzed a statistical sample of 115 complaints extracted
from our universe of 201,438 potential duplicate complaints and reviewed case notes to find that 103 (or
89.6 percent) were determined to be duplicate). We multiplied the 89.6 percent by our universe of 201,438, which
gave us 180,418 repeat complaints.




                                                        11
     Customer Complaint Resolution Process                                             MS-AR-12-007



     Prior Audit Coverage

                        Report           Final Report            Monetary Impact
  Report Title          Number               Date
Allegations           NO-MA-09-001 March 30, 2009                          None
Concerning                                                 .
Operations and
Service in the
Philadelphia
Customer Service
District
Report Results: The Philadelphia Customer Service District experienced periods of
increased customer complaints from October 2007 through December 2008. While many
allegations were not substantiated, the negative exposure can still be detrimental to the
Postal Service’s brand/image and damaging to its reputation. Management agreed with our
findings and recommendations.
                        Report           Final Report            Monetary Impact
  Report Title          Number               Date
Customer               MS-AR-09-009        July 10, 2009                  None
Complaints                                                  	
Report Results: The Postal Service did not resolve all complaints closed as required. DCA
officials and Post Office employees closed complaints without resolving issues because they
did not want their assigned cases to appear on the Overdue Service Issue Record report.
Established policies did not make it mandatory for management to provide oversight by
performing quality control reviews of closed cases as required. Management agreed with
our findings and recommendations.




                                                   12
Customer Complaint Resolution Process                                                                 MS-AR-12-007



                                    Appendix B: Monetary Impacts

                                              Monetary Impacts

           Recommendation                     Impact Category                             Amount
                 1                      Questioned Costs 22                                $8.8 million
                 1                      Funds Put to Better Use 23                        $17.6 million

We estimated that the cost of handling repeat complaints added about $8.8 million in
unnecessary costs for the Postal Service during the 12-month period from April 1, 2011
through March 31, 2012. To do so, we first estimated the time it took for Postal Service
staff at local Post Office and district levels to handle repeat complaints:

    Local Post Office officials – the Postal Service estimated the average time to handle
     a complaint was 55 minutes (or 0.92 hours).

    District staff – we calculated 1.5 workhours, on average, per complaint by dividing
     the total number of complaints handled by district employees by the number of hours
     worked.

We then multiplied the average hours spent handling complaints by the number of
complaints handled by each local post office (102,838) and by the district office (77,580)
over this 12-month period (see Table 3). Then we calculated the average hourly pay
rate of a bargaining unit clerk to handle these complaints to be $41.82 per hour. We
then multiplied the total hours spent handling customer complaints by this average
hourly pay rate. In summary, it cost the Postal Service about $8.8 million ($4.87 million
at the district level and $3.96 million at the local Post Office level) to handle customer
complaints during that time.

      Table 3. Estimated Staff Costs for Handling Repeat Customer Complaints,
                        April 1, 2011 through March 31, 2012

                                                                        District           Local Post
                                                                        Office               Office
         Average hours spent per complaint                                    1.50                  0.92
         Number of complaints                                              77,580               102,838
         Subtotal – hours spent handling complaints                       116,370                94,611
         Average hourly pay rate*                                          $41.82                $41.82
         Estimated Staff Cost                                          $4,866,593            $3,956,632
       Source: OIG estimate based on Postal Service data.
       *
         Average Pay Rate for bargaining unit clerk.




22
   Unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, or contract. May be
recoverable or unrecoverable. Usually a result of historical events.
23
   Funds that could be used more efficiently by implementing recommended actions.




                                                         13
Customer Complaint Resolution Process                                        MS-AR-12-007



We then estimated that the Postal Service would have incurred similar costs of
$8.8 million for the 12-month period that included the first 6 months of FY 2011
(October 1, 2010 to March 31, 2011) and the last 6-month period of FY 2012
(April 1 to September 31, 2012). Thus, we designated $17.6 million in total costs
($8.8 for a 12-month period and $17.6 million for a 24-month period) as funds that could
have been put to better use.




                                           14
Customer Complaint Resolution Process                        MS-AR-12-007




                         Appendix C: Management’s Comments




                                        15
Customer Complaint Resolution Process        MS-AR-12-007




                                        16
Customer Complaint Resolution Process        MS-AR-12-007




                                        17
